Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     AN ILLINOIS PHYSICAL
      THERAPIST CLAIMED
   UNALLOWABLE MEDICARE
 PART B REIMBURSEMENT FOR
    OUTPATIENT THERAPY
          SERVICES

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Sheri L. Fulcher
                                               Regional Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-05-13-00010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

An Illinois physical therapist in private practice improperly claimed at least $634,837 in
Medicare reimbursement for physical therapy services.


WHY WE DID THIS REVIEW

In recent years, outpatient physical therapy payments have increased annually with total
payments to physical therapists in private practice (therapist) totaling $1.7 billion in Calendar
Year (CY) 2011. Past Office of Inspector General (OIG) reviews have identified claims for
outpatient physical therapy services that were not reasonable, medically necessary, or properly
documented, and vulnerable for fraud, waste, and abuse. After analyzing Medicare claims data
for CY 2011, we selected multiple physical therapists for review, including this therapist located
in the State of Illinois. Our analysis indicated that, among other selected criterion, this selected
therapist was among the highest Medicare therapy billers in the State of Illinois.

Our objective was to determine whether outpatient physical therapy services provided by an
Illinois physical therapist in private practice were paid in accordance with Medicare
requirements.

BACKGROUND

Federal regulations provide coverage of Medicare Part B outpatient physical therapy services.
For these services to be covered, they must be medically reasonable and necessary, they must be
provided in accordance with a plan of care established by a physician or qualified therapist and
periodically reviewed by a physician, and the need for such services must be certified by a
physician. Medicare Part B also covers outpatient physical therapy services performed by or
under the personal supervision of a therapist in private practice. Federal law precludes payment
to any provider of services or other person without information necessary to determine the
amount due the provider.

HOW WE CONDUCTED THIS REVIEW

Our review covered 4,298 Medicare outpatient physical therapy services totaling $645,966,
provided by a therapist from January 1 through December 31, 2011. A claim consisted of all
payments made for a beneficiary on the same date of service.

WHAT WE FOUND

The therapist claimed Medicare reimbursement for outpatient physical therapy claims that did
not meet Medicare reimbursement requirements. Specifically, of the 100 claims in our random
sample, the therapist improperly claimed Medicare reimbursement on 99 claims, all of which
contained more than one deficiency. The therapist properly claimed Medicare reimbursement on
the remaining claim.



An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                           i
These deficiencies occurred because the therapist did not have adequate policies and procedures
in place to ensure that the therapist billed services that met certain Medicare requirements.

On the basis of our sample results, we estimated that the therapist improperly received at least
$634,837 in Medicare reimbursement for outpatient physical therapy services that did not
comply with certain Medicare requirements.

WHAT WE RECOMMEND

We recommend that the therapist:

   •    refund $634,837 to the Federal Government and

   •    establish adequate policies and procedures to ensure that outpatient physical therapy
        services billed to Medicare are medically necessary, correctly coded, and adequately
        documented.

THERAPIST’S COMMENTS AND OUR RESPONSE

In written comments on our draft report, the therapist, through his attorneys, disagreed with our
findings and recommendations. After reviewing the information provided in the therapist’s
written comments, we maintain that our findings and recommendations are valid.




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                        ii
                                                     TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

       Objective ................................................................................................................................1

       Background ............................................................................................................................1
              The Medicare Program .............................................................................................1
              Medicare Outpatient Physical Therapy Services ......................................................1
              Illinois Physical Therapist.........................................................................................2

       How We Conducted This Review..........................................................................................2

FINDINGS .....................................................................................................................................3

       Plan of Care Did Not Meet Medicare Requirements .............................................................4

       Treatment Notes Did Not Meet Medicare Requirements ......................................................5

       Untimely or Missing Progress Reports .................................................................................6

       Services Not Medically Necessary ........................................................................................7

       Physician Certification Did Not Meet Medicare Requirements ............................................8

       Conclusion .............................................................................................................................9

RECOMMENDATIONS ...............................................................................................................9

THERAPIST’S COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .........9

APPENDIXES

       A: Audit Scope and Methodology ......................................................................................15

       B: Statistical Sampling Methodology .................................................................................17

       C: Sample Results and Estimates ........................................................................................19

       D: Summary of Sample Errors ............................................................................................20

       E: Therapist’s Comments ....................................................................................................23




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                                                                     iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

In recent years, outpatient physical therapy payments have increased annually with total
payments to physical therapists in private practice (therapist) totaling $1.7 billion in Calendar
Year (CY) 2011. Prior Office of Inspector General (OIG) reviews have identified claims for
outpatient physical therapy services that were not reasonable, medically necessary, or properly
documented, and vulnerable for fraud, waste, and abuse. After analyzing Medicare claims data
for CY 2011, we selected multiple physical therapists for review, including this therapist located
in the State of Illinois. Our analysis indicated that, among other selected criterion, this selected
therapist was among the highest Medicare therapy billers in the State of Illinois.

OBJECTIVE

Our objective was to determine whether outpatient physical therapy services provided by an
Illinois physical therapist in private practice were paid in accordance with Medicare
requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Medicare Part B provides supplementary medical insurance for medical and other health
services, including outpatient therapy services. CMS contracts with Medicare contractors to
process and pay Part B claims.

Medicare Outpatient Physical Therapy Services

Medicare Part B provides coverage for outpatient therapy services 1 that includes physical
therapy, occupational therapy, and speech language pathology services. Physical therapists
evaluate and treat disorders of the musculoskeletal system. The goal of physical therapy is to
restore maximal functional independence to each individual patient by providing services that
aim to restore function, improve mobility and relieve pain. Modalities such as exercise, heat,
cold, electricity and massage are used. These services are provided in a number of different
settings; however, the majority of Medicare payments for outpatient therapy services are made to
physical therapists practicing in an office setting.




1
    Sections 1832(a)(2)(C) and 1861(p) of the Act.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                       1
For Medicare Part B to cover outpatient physical therapy services, it must be medically
reasonable and necessary, the services must be provided in accordance with a plan of care (plan)
established by a physician or qualified therapist and periodically reviewed by a physician, and
the need for such services must be certified by a physician. 2 Further, Medicare Part B pays for
outpatient physical therapy services billed using standardized codes 3 and performed by or under
the personal supervision of a therapist in private practice. 4 Finally, the Act precludes payment to
any provider of services or other person without information necessary to determine the amount
due the provider. 5

These requirements are further clarified in chapter 15 of CMS’s Medicare Benefits Policy
Manual (Pub. 100-02) and in chapter 5 of its Medicare Claims Processing Manual
(Pub. 100-04).

Illinois Physical Therapist

The selected physical therapist operates two physical therapy offices and provides additional
physical therapy services at a chiropractic office located in the State of Illinois.

During our audit period (January 1 through December 31, 2011), Wisconsin Physicians Services
Insurance Corporation was the Medicare Administrative Contractor (MAC) for providers in
Jurisdiction 6, which included Illinois. National Government Services assumed full
responsibility as the Medicare contractor for Jurisdiction 6 effective September 7, 2011.

HOW WE CONDUCTED THIS REVIEW

Our review covered a therapist’s claims for Medicare outpatient physical therapy services
provided from January 1 through December 31, 2011. Our sampling frame consisted of 4,298
outpatient physical therapy service claims, 6 totaling $645,966, of which we reviewed a simple
random sample of 100 claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

2
    Sections 1862(a)(1)(A) and 1835(a)(2) of the Act.
3
  Standardized codes used by providers are called Healthcare Common Procedure Coding System (HCPCS) codes to
report units of service.
4
    42 CFR §§ 410.59 and 410.60.
5
    Section 1833(e) of the Act.
6
    A claim consisted of all payments made for a beneficiary on the same date of service.


An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                               2
Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, Appendix C contains our sample results and estimates, and
Appendix D contains a summary of the sample errors.

                                                    FINDINGS

The therapist claimed Medicare reimbursement for outpatient physical therapy claims that did
not meet Medicare reimbursement requirements. Specifically, of the 100 claims in our random
sample, the therapist improperly claimed Medicare reimbursement on 99 7 claims, all of which
contained more than one deficiency as shown in Figure 1. The therapist properly claimed
Medicare reimbursement on the remaining claim.


                                      Figure 1: Claims by Type of Error


                   100
                    80
                    60          97            95
                    40
                                                            49           44           39
                    20
                     0
                          Plan of Care Treatment       Progress     Medical      Physician
                                         Notes         Reports      Necessity   Certification


As illustrated above:

       •   97 claims did not meet Medicare’s plan of care requirements,

       •   95 claims did not meet Medicare’s treatment note requirements,

       •   49 claims had progress reports that were untimely or not contained in the medical record,

       •   44 claims had therapy services that were not medically necessary, and

       •   39 claims did not meet Medicare’s physician certification requirements.

These deficiencies occurred because the therapist did not have adequate policies and procedures
in place to ensure that the therapist billed for services that met certain Medicare requirements.
On the basis of our sample results, we estimated that the therapist improperly received $634,837
in Medicare reimbursement for outpatient physical therapy services that did not comply with
Medicare requirements.


7
    The total errors exceed 99 because claims contained more than one error.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                        3
PLAN OF CARE DID NOT MEET MEDICARE REQUIREMENTS

Outpatient physical therapy services must be provided in accordance with a written plan
established before treatment begins (42 CFR § 410.60). The plan must contain the type, amount,
frequency, and duration of the occupational or physical therapy services to be furnished and must
indicate the diagnosis and anticipated goals (42 CFR § 410.61). Goals should be measurable and
pertain to identified functional impairments. In addition, the signature and professional identity
of the person who established the plan and the date it was established must be recorded
(Medicare Benefit Policy Manual, chapter 15, §§ 220.1.2A and B).

For 97 8 claims, the therapist received Medicare reimbursement for services that were not
provided in accordance with a plan of care that met Medicare requirements as shown in Figure 2.

                                     Figure 2: Claims by Plan of Care Errors



                    100
                    90               95
                    80
                    70                                           74
                    60
                    50
                    40
                    30
                    20                                                                         5
                    10
                     0
                          Goals Not Measurable         Invalid/or Missing         Incomplete or No Plan
                                                      Therapist's Signature             of Care


Specifically:

                •     For 95 claims, the goals were not measurable or pertained to identified functional
                      impairments. For example, the therapist received payment for physical therapy
                      services provided on June 9, 2011, to a 72-year-old Medicare beneficiary. The
                      therapist provided a plan of care that was generally vague with short term goals to
                      decrease the level of chronic pain and long term goals to improve the patient’s
                      range of motion, strength, tone and gait/balance. However, the patient received
                      nearly 6 months of repetitive therapy with no objective evidence of measurable
                      progress or need of services of a skilled therapist.


8
    The total errors exceed 97 because the plan of care on these claims contained more than one error.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                              4
                •   For 74 claims, the therapist’s signature did not meet Medicare requirements.
                    Specifically, 73 of these claims relate to electronic medical records that did not
                    contain a contemporaneous signature at the time the plan of care was prepared.
                    At the time of our audit, the therapist used an unsecured rubber stamp to manually
                    stamp these claims. Stamp signatures are not an allowable form of signature. For
                    the remaining manual claim, the therapist did not sign the plan.

                •   For five claims, the plan of care was missing or incomplete.

TREATMENT NOTES DID NOT MEET MEDICARE REQUIREMENTS

Medicare payments should not be made without the information necessary to determine the
amount due the provider (section 1833(e) of the Act). In addition, a provider must furnish to its
MAC sufficient information to determine whether payment is due and the amount of payment
(42 CFR § 424.5(a)(6)).

Outpatient therapy services are payable when the medical record and information on the
provider’s claim form consistently and accurately report covered services (Medicare Benefit
Policy Manual, chapter 15, § 220.3A). In addition, providers must report the number of units for
outpatient rehabilitation services based on the procedures or services provided. For timed
procedures, units are reported in 15-minute intervals. For untimed procedures, units are reported
based on the number of times the procedure is performed (Medicare Claims Processing Manual,
chapter 5, § 20.2).

Therapists must maintain a treatment note for each treatment day and each therapy service. The
treatment note must document the: (1) date of treatment, (2) identification of each specific
service provided and billed, (3) total timed code treatment minutes and total treatment time in
minutes, and (4) signature and professional identification of the therapist who furnished or
supervised the service (Medicare Benefit Policy Manual, chapter 15, § 220.3E). A Local
Coverage Determination (LCD) related to signatures states that stamp signatures are not an
acceptable form of signature. 9

For 95 10 claims, the therapist received Medicare reimbursement for services for which the
treatment notes did not meet Medicare requirements as shown in Figure 3.




9
 LCD Number L28531, Outpatient Rehabilitation Therapy Services billed to Medicare Part B, it states, “Effective
April 28, 2008, stamp signatures were no longer acceptable.”
10
     The total errors exceed 95 because treatment notes on claims contained more than one error.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                                      5
                                Figure 3: Claims by Treatment Note Errors

                       100
                                     93
                                                       75             73
                        50
                                                                                       7

                         0
                                  Missing        Unsupported        Invalid     Billed Code
                              Specific Skilled    Number of      Therapist's   Not in Plan of
                               Intervention       Units Billed    Signature         Care

Specifically:

            •   For 93 claims, the treatment notes did not indicate the specific
                interventions/modalities provided to verify that the correct HCPCS codes were
                billed. For example, the therapist received payment for physical therapy
                provided under HCPCS code 97110 on February 10, 2011, to a 71-year old
                Medicare beneficiary. The therapist provided treatment notes stating that the
                “therapeutic exercise applied to: the lumbar back, the trunk, and the lower
                extremities bilaterally (30 minutes).” However, the treatment notes did not
                indicate what specific therapeutic exercises were performed to warrant the billing
                of HCPCS code 97110.

            •   For 75 claims, the treatment notes did not support the number of units billed. For
                71 of these claims, the treatment notes did not document total minutes as required
                by Medicare for timed HCPCS codes. For the remaining 4 claims, more units
                were billed than were supported by the treatment notes.

            •   For 73 claims, the treatment notes did not have a valid therapist signature as
                required by Medicare policy. Specifically, these claims related to electronically
                kept medical records that did not contain a contemporaneous signature at the time
                the treatment notes were prepared. For these claims, the therapist used an
                unsecured rubber stamp to manually stamp the claims at the time these claims
                were provided to us for audit. Stamp signatures are not an allowable form of
                signature.

            •   For seven claims, the therapist billed a code for services that were not prescribed
                by the plan of care.

UNTIMELY OR MISSING PROGRESS REPORTS

The minimum progress report period shall be at least once every 10 treatment days or at least
once each 30 calendar days, whichever is less. (Medicare Benefit Policy Manual, (Pub. 100-02)
§ 220.3D).

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                          6
For 42 claims, progress reports were not made at least once every 10 treatment days or at least
once during each 30 calendar days, whichever was less. For an additional seven claims, there
were no progress reports as required by Medicare regulations.

SERVICES NOT MEDICALLY NECESSARY

The Balanced Budget Act of 1997 placed an annual cap on Medicare rehabilitation services.
Financial limits called “therapy caps” apply to outpatient Part B therapy services. 11 Exceptions
to therapy caps are authorized if services are medically necessary and identified by a “KX
modifier” on the claim. The modifier is added to a claim to indicate that the provider attests that
services are medically necessary and that justification is documented in the medical record
(Medicare Claims Processing Manual, chapter 5, §§ 10.2 and 10.3).

No payment may be made under Medicare Part A or Part B for any expenses incurred for items
or services that are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member (section 1862(a)(1)(A) of the
Act).

For 44 12 claims, the therapist received Medicare reimbursement for which the beneficiaries’
medical record did not support the medical necessity of services. The results of the medical
review 13 indicated that these services did not meet one or more Medicare requirements:

     •   Goals in plans of care were not measurable (35 services).

     •   Invalid or missing certification of the plans of care (35 services).

     •   Overall medical record documentation failed to support medical necessity (25 services).

     •   Physical therapy was repetitive with no evidence that skilled therapy services were
         needed (24 services).

For example, the therapist received payment for physical therapy provided on June 30, 2011, to a
74-year old Medicare beneficiary. The medical review contractor determined that the therapy
service did not meet Medicare coverage requirements as the medical records failed to support
that the functional ability was impaired to the degree that would require therapy beyond the
implementation of a home exercise program. This patient had received services beyond the
Medicare cap by receiving approximately 6 months of therapy and there was no objective
evidence of progress in the medical record.
11
  Therapy caps were established for (1) combined physical and speech therapy services and (2) occupational
therapy services and were based on therapy services that the beneficiary received. For calendar year 2011, the
therapy caps for each were $1,870.
12
  Of the 44 claims, 43 were for services over the therapy cap. As such, the therapy provider billed these 43 claims
with the KX modifier.
13
  Of the 44 claims, 43 were reviewed by an independent medical review contractor and one claim was reviewed by
the Medicare Administrative Contractor.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                                          7
PHYSICIAN CERTIFICATION DID NOT MEET MEDICARE REQUIREMENTS

Payment for outpatient therapy services may be made if a physician certifies: (i) that such
services were required because the individual needed outpatient therapy, (ii) a plan for furnishing
such services has been established by a physician or by a qualified therapist and periodically
reviewed by a physician, and (iii) such services were furnished while the individual was under
the care of a physician (section 1835(a)(2)(C) of the Act).

Initial certifications must be obtained as soon as possible after the plan is established and must be
signed by a physician, nurse practitioner, clinical nurse specialist, or physician assistant who has
knowledge of the case (42 CFR § 424.24(c)(2) and (3)). Initial certification requirements are
satisfied by a physician or non-physician practitioner’s certification of the initial plan. For an
initial plan to be certified in a timely manner, the physician or non-physician practitioner must
certify the initial plan as soon as it is obtained or within 30 days of the initial treatment. For
recertification, the plan must be dated during the duration of the initial plan of care or within 90
calendar days of the initial treatment under that plan, whichever is less (Medicare Benefit Policy
Manual, chapter 15, § 220.1.3.D). Physician certification is documented by a dated signature or
verbal order (Medicare Benefit Policy Manual, chapter 15, § 220.1.3.B).

For 39 14 claims, the therapist received Medicare reimbursement for services that did not meet
Medicare physician certification requirements as shown in Figure 4.

                              Figure 4: Claims by Physician Certification Errors


                     25
                     20               22
                     15                                        17
                     10
                                                                                       1
                      5
                      0
                              Plan of Care Not     Physician Certification   Untimely Physician
                            Signed by Physician          Not Dated              Certification


Specifically:

                •   For 22 claims, the physician certification on the initial plan of care or the
                    recertification for subsequent therapy services was missing.

                •   For 17 claims, the physician certification was not dated to determine whether the
                    physician certification was timely.

                •   For one claim, the physician certification of the beneficiary’s initial plan was
                    untimely.
14
     The total errors exceed 39 because one claim contained more than one error.

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                            8
CONCLUSION

On the basis of our sample results, we estimated that the therapist improperly received at least
$634,837 in Medicare reimbursement for outpatient physical therapy services that did not
comply with certain Medicare requirements.

                                        RECOMMENDATIONS

We recommend that the therapist:

   •    refund $634,837 to the Federal Government and

   •    establish adequate policies and procedures to ensure that outpatient physical therapy
        services billed to Medicare are medically necessary, correctly coded, and adequately
        documented.

 THERAPIST’S COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the therapist, through his attorneys, disagreed with our
findings and recommendations. The therapist’s comments are included in their entirety as
Appendix E.

After reviewing the information provided in the therapist’s written comments, we maintain that
our findings and recommendations are valid. Below is a summary of the therapist’s comments as
well as our response to those comments.

Plan of Care

Goals Not Measurable

The therapist disagreed that denial on the basis of failure to include “measurable goals” was
inappropriate. The therapist believes that the cited criterion stating “should be measurable” do
not indicate a mandated requirement and that this is consistent with the provisions of the Jimmo
settlement.

We maintain that 95 claims did not meet the requirements for plans of care. To provide a valid
and payable service, outpatient physical therapy services must meet the definition of “outpatient
physical therapy services” section 1861(p) of the Act, which includes the requirement that
services be provided “with respect to whom a plan prescribing the type, amount, and duration of
physical services that are to be furnished….” Requirements specific to plans of care for
outpatient therapy services were established in 42 CFR § 410.61. Under 42 CFR § 410.61(c),
plans of care must indicate “the diagnosis and anticipated goals.” The Medicare Benefit Policy
Manual, chapter 15, §§ 220.1.2.A and B, provides clarifying guidance related to the required
contents of the plan of care. Under § 220.1.2.B, plans of care must include long-term treatment
goals, which “should be measurable and pertain to identified functional impairments” consistent

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                        9
with the requirements of 42 CFR § 410.61. However, § 220.1.2.B also recognizes “that
measurable goals may not be achievable…” documentation should state the clinical reasons
progress cannot be shown. In our review of the claims and the associated plans of care,
documentation did not meet the minimum requirements for including information on long-term
treatment goals. Additionally, there was no documentation that explained why long-term
measurable goals were not achievable.

Invalid/or Missing Therapist’s Signature

The therapist believes that a signature is neither applicable nor expressly required in a plan of
care. Additionally, the therapist believes that for electronic claims, a contemporaneous signature
is not possible nor a condition of payment.

We maintain that the 74 claims did not meet requirements for plans of care under Medicare
Benefit Policy Manual, chapter 15, § 220.1.2.A, which requires the signature of and professional
identity of the individual who established the plan. Exception 3 in the Program Integrity Manual
§ 3.3.2.4 states that “CMS’ instructions regarding conditions of payment related to
signatures…take precedence.” Additionally, Program Integrity Manual § 3.3.2.4, states that
stamp signatures are not acceptable. While onsite, we were provided records, including plans of
care, that were printed and then stamp signed to indicate the physical therapist who established
the plan of care. We were not provided any documentation that these claims included an
electronic signature of the physical therapist who established the plan of care. Plans of care that
only had the stamped signature made at the time documents were provided in response to our
audit do not meet the relevant requirements to establish a valid plan of care.

Incomplete or No Plan of Care

The therapist stated that we did not identify the specific issues supporting the missing or
incomplete plans of care. It also stated that the required information can be inferred from the
record as a whole.

We maintain that in order to determine the allowability of a claim, we needed a complete plan of
care. Outpatient physical therapy services must be provided in accordance with a written plan
established before treatment begins. The plan must contain the type, amount, frequency, and
duration of the occupational or physical therapy services to be furnished and must indicate the
diagnosis and anticipated goals (42 CFR § 410.61). For one of the claims, there was no plan of
care in the medical record. For four of the claims, the plans of care were missing various
required elements such as short and/or long-term goals, frequency of therapy duration, or
therapist’s signature.




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                      10
Treatment Notes

Missing Specific Skilled Intervention

The therapist believes that denial on the basis of not indicating the specific
interventions/modalities in the treatment notes is not an identified condition of payment.

We maintain that 93 claims did not meet Medicare treatment note requirements because they did
not indicate the specific interventions/modalities provided. Specifically, Medicare payments
should not be made without the information necessary to determine the amount due the provider
(section 1833(e) of the Act). In this respect, therapists must maintain a treatment note for each
therapy service that contains the: (1) date of treatment, (2) identification of each specific service
provided and billed, (3) total timed code treatment minutes and total treatment time in minutes,
and (4) signature and professional identification of the therapist who furnished or supervised the
service (Medicare Benefit Policy Manual, chapter 15, § 220.3.E).

Unsupported Number of Units Billed

The therapist believes that for 71 claims the amount of time spent in performance of each time-
based service was indicated in the medical record and that the total time spent can be easily
inferred. For the remaining four claims, the therapist acknowledged that the documentation was
deficient, however, believes that it provided us testimonial evidence. Finally, the therapist
believes that a documentation deficiency is not a condition of payment.

We disagree that the 71 claims referred to by the therapist contained information relative to the
time spent in performance of each time-based service. The 71 claims did not include total
treatment time in minutes as required by Medicare Benefit Policy Manual, chapter 15, § 220.3.E.
Without this information, the treatment notes did not include required information to “record the
time of the services in order to justify the use of billing codes on the claim.” For the remaining 4
claims we reviewed the testimonial evidence provided, but maintain that there is still insufficient
evidence that units billed were supported by the treatment notes or additional testimonial
evidence.

Invalid Therapist’s Signature

The therapist believes that a signature on the treatment note is not a condition of payment and
that its use of his own signature stamp to attest to his created notations meets the spirit of the
attestation rules. As such, this defect is correctable with an attestation.

We maintain that the 73 claims did not meet requirements for treatment notes under Medicare
Benefit Policy Manual, chapter 15, § 220.3.E, which requires “[s]ignature and professional
identification of the qualified professional who furnished or supervised the service.” Exception 3
in the Program Integrity Manual § 3.3.2.4 states that “CMS’ instructions regarding conditions of
payment related to signatures…take precedence.” Additionally, Program Integrity Manual §
3.3.2.4, states that stamp signatures are not acceptable. While onsite, we were provided records,

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                         11
including treatment notes, that were printed and then stamp signed to indicate the professional
who furnished or supervised the service. We were not provided any documentation that these
claims included an electronic signature in the treatment note to indicate the professional who
furnished or supervised the service. Treatment notes that only had the stamped signature made at
the time documents were provided in response to our audit do not meet the documentation
requirements for treatment notes.

Billed Code Not in Plan of Care

The therapist believes that there is no evidence that we considered whether a change in plan was
appropriate and permitted. The therapist believes that changes to the plan of care were evident in
the daily notations and that minor changes he made to the plan of care did not constitute a major
change to the plan of care.

We disagree with the therapist’s assertions and maintain that seven claims were billed for
services not included in the plan of care. Outpatient physical therapy services must be provided
in accordance with a written plan established before treatment begins. The plan must contain the
type, amount, frequency, and duration of the occupational or physical therapy services to be
furnished and must indicate the diagnosis and anticipated goals (42 CFR § 410.61). Further, as a
condition of coverage under the Medicare Benefit Policy Manual, chapter 15, § 220.1.2A, “the
services must relate directly and specifically to a written treatment plan as described in this
chapter.” Further, the services provided amounted to significant changes in the plan of care and
did not include the appropriate certification of those changes in accordance with the Medicare
Benefit Policy Manual, chapter 15, § 220.1.2.C.

Untimely or Missing Progress Reports

The therapist believes progress reports, while required to justify the necessity of the treatment,
are not required as a condition of payment. The therapist believes that our allegation of error is
based on perceived content deficiencies as opposed to standards of necessity.

We maintain that 42 claims and an additional 7 claims did not include required documentation
for timely progress reports or were missing progress reports. According to Medicare Benefit
Policy Manual, chapter 15, § 220.3.A, the documentation guidelines in this section identify the
minimal expectations of documentation by providers or suppliers or beneficiaries submitting
claims for payment of therapy services to the Medicare program. Additionally, progress notes
provide justification for the medical necessity of treatment. (Medicare Benefit Policy Manual,
chapter 15, § 220.3.D). For the 42 claims that included untimely progress reports, the reports
were not made within the 7-day grace period and did not provide documentation that the
“clinician did not participate actively in treatment during the progress report period.”




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                         12
Services Not Medically Necessary

The therapist believes that our conclusion regarding goals was made under the presumption that
measurable goals are required and states that this is inconsistent with the Jimmo case.
Additionally, the therapist believes that a certification of the plan of care is a condition of
payment unrelated to the necessity of care and that our review ignored the provision of delayed
certification. Finally, the therapist stated that we did not provide specific facts for the conclusion
that documentation failed to support medical necessity and that using “no objective progress” as
a basis for determination is contrary to CMS disavowing the “improvement standard” as a
predicate for the coverage in the Jimmo settlement.

We submitted these claims to an independent medical review contractor to determine whether
the services met medical necessity. Specifically, the determination that the therapist received
Medicare reimbursement for services for which the medical record did not support the medical
necessity of the services above the therapy cap was made by two clinicians - one of them being a
physical therapist and the other a board certified physician in the field of physical medicine and
rehabilitation. The medical review staff have extensive knowledge of the Medicare requirements
related to medical necessity and, on the basis of their review of the medical records, concluded
that therapist’s documentation did not justify services above the therapy cap.

Physician Certification

The therapist acknowledged that certifications must be signed and dated, but stated that we
ignored the CMS provision that allows for delayed certifications, which it has obtained for
appropriate certification.

Of the 39 claims with deficiencies, we identified 38 claims that either did not have a physician
signature or lacked a date on the physician certification to determine whether the certification
was timely. For the remaining claim, we reviewed a delayed certification during our field work
that still did not meet Medicare delayed certification requirements. 42 CFR § 424.11(d)(3)
allows for delayed certification and recertification statements when there is a legitimate reason.
These statements must include an explanation for the delay. The therapist’s response and the
medical records did not specify the reasons for the delay as required.

Statistical Sampling

The therapist believes it has identified numerous problems in our statistical sampling
methodology. The therapist believes excluding unpaid claims and claims less than $25 from the
sample would bias the projected financial error to yield a higher overpayment amount. The
therapist also stated that we did not divulge the basis for determining the sample size, which is
necessary to determine the appropriate sample size. Finally, the therapist believes that the non-
statistical nature of the projection is evident given that the point estimate from the projection
calculations yielded an amount in excess of the total value of all claims in the sampling frame -
suggesting that the sample was not representative of the universe.



An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                        13
Federal courts have established the use of statistical sampling and estimation as a viable audit
technique. 15 Questioning whether the sample could have been more precise or optimal does not
indicate that our methodology was invalid. 16 We properly executed our statistical sampling
methodology in that we have defined our sampling frame and sample unit, randomly selected our
sample, applied relevant criteria in evaluating the sample, and applied the correct formulas for
the estimation.

With respect to sample size, the Medicare Program Integrity Manual indicates that it is neither
possible nor desirable to specify a minimum sample size that applies to all situations. A
challenge to the validity of the sample that is sometimes made is that the particular sample size is
too small to yield meaningful results. Such a challenge is without merit as it fails to take into
account all of the other factors that are involved in the sample design. As sample sizes decrease
so does the estimated overpayment amount at the lower limit of the confidence interval, thus
giving the benefit of a smaller sample to the Medicare provider. 17

Furthermore, our use of statistical sampling by no means removes the therapist’s right to appeal
the individual determinations on which the estimation is based through the normal appeals
process. 18

Therefore, we continue to recommend that the therapist refund to the Medicare program
$634,837 in estimated overpayments for CY 2011 and that it strengthen controls to ensure full
compliance with Medicare requirements.




15
     Chaves County Home Health Service, Inc. v. Sullivan, 931 F.2d 914 (D.C. Cir. 1991).
16
     Miniet v Sebelius, No. 10-24127-CIV (S.D. Fla. 2012).
17
     Schuldt Chiropractic Wellness Center v Sebelius, No. 8:13CV4 (D. Neb. 2014).
18
     Pruchniewski v. Leavitt, No. 08:04-CV-2200-T-23TBM (M.D. Fla 2006).

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                      14
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 4,298 Medicare outpatient physical therapy services, totaling $645,966,
provided by the therapist from January 1 through December 31, 2011. A claim consisted of all
payments made for a beneficiary on the same date of service. These claims were extracted
from CMS’s National Claims History file.

We limited our review of internal controls to those applicable to our objective. Specifically, we
obtained an understanding of the therapist’s policies and procedures for documenting and billing
Medicare for outpatient therapy services. Our review enabled us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims
History file, but we did not assess the completeness of the file.

We conducted our fieldwork at the therapist’s offices in Illinois, from January through
September 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations and guidance;

    •   interviewed Medicare officials to obtain an understanding of the Medicare
        requirements related to outpatient therapy services;

    •   interviewed the therapist to gain an understanding of its policies and procedures
        related to providing and billing Medicare for outpatient therapy services;

    •   extracted from CMS’s National Claims History file a sampling frame of 4,298
        outpatient therapy service claims, totaling $645,966, from January 1 through
        December 31, 2011;

   •    selected a simple random sample of 100 outpatient therapy service claims from the
        sampling frame (Appendixes B and C);

   •    reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

   •    obtained and reviewed case record documentation from the therapist for each sample
        claim to determine whether the services were provided in accordance with Medicare
        requirements;



An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                    15
   •    used an independent medical review contractor to determine whether 43 sampled claims
        met medical necessity requirements;

   •    used the MAC to determine whether one sampled claim met medical necessity
        requirements;

   •    used the results of the sample review to calculate the estimated unallowable Medicare
        reimbursement paid to the therapist (Appendix C); and

   •    discussed the results of our review with the therapist.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                    16
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all Medicare Part B outpatient therapy service claims paid to the
therapist from January 1 through December 31, 2011.

SAMPLING FRAME

The sampling frame was an Access database containing 4,298 outpatient therapy service claims,
totaling $645,966, provided by the therapist from January 1 through December 31, 2011. The
claims data were extracted from the CMS National Claims History file.

SAMPLE UNIT

The sample unit was an outpatient therapy service claim from January 1 through
December 31, 2011, for which the therapist claimed Medicare reimbursement. A claim consisted
of all payments made for a beneficiary on the same dates of service. The claims were limited to
payment amounts greater than or equal to $25.

SAMPLE DESIGN

We used a simple random sample to review Medicare payments made to the therapist for
outpatient therapy services.

SAMPLE SIZE

We selected a sample of 100 outpatient therapy service claims.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame. After generating 100
random numbers, we selected the corresponding frame items. We then created a list of the 100
sampled items.




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                    17
ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We estimated the total
amount of inappropriate Medicare payments for unallowable outpatient therapy services made to
the therapist at the lower limit of the 90-percent confidence level.




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)               18
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                          SAMPLE RESULTS

                                                                       Number        Value of
       Claims in           Value of       Sample       Value of            of       Unallowable
        Frame               Frame          Size        Sample         Unallowable     Claims
        4,298             $645,966         100         $16,492            99           $16,060


                                               ESTIMATES

                             Estimated Value of Unallowable Claims
                     (Limits Calculated for a 90-Percent Confidence Interval)
                                 Point Estimate                    $690,255
                                 Lower Limit                        634,837
                                 Upper Limit                        745,673




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                      19
                      APPENDIX D: SUMMARY OF SAMPLE ERRORS
                                      Legend

                                            Description of Error
                 A     Plan of care did not meet Medicare requirements
                 B     Treatment notes did not meet Medicare requirements
                 C     Untimely or missing progress reports
                 D     Therapy services were not medically necessary
                 E     Physician certifications did not meet Medicare requirements

          Sample                                                                   Total
          Number            A            B             C            D          E   Errors
             1              X            X                                           2
             2              X                                                  X     2
             3              X            X             X                             2
             4              X            X             X            X                3
             5              X            X                                           2
             6              X            X                                     X     3
             7              X            X             X            X                4
             8              X            X                                           2
             9              X            X             X            X          X     5
            10              X            X             X            X          X     5
            11              X            X             X            X                4
            12              X            X             X            X          X     5
            13              X            X                                     X     3
            14              X            X             X                       X     4
            15              X            X             X                             3
            16              X            X             X            X          X     5
            17              X            X                                     X     3
            18              X                                                  X     2
            19                                                                       0
            20              X            X                                     X     3
            21              X            X                                           2
            22              X            X                          X                3
            23              X            X                                     X     3
            24              X            X             X            X          X     5
            25              X            X                          X                3
            26              X            X                          X                3
            27              X            X             X            X          X     5
            28              X            X                                     X     3
            29              X            X                          X                3


An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                20
          Sample                                                                   Total
            No.             A            B             C            D          E   Errors
            30              X            X                                           2
            31              X            X                                     X     3
            32              X            X             X            X                4
            33              X            X                                     X     3
            34              X            X             X            X          X     5
            35              X            X                                     X     3
            36              X            X                                     X     3
            37              X            X             X                             3
            38              X            X                                     X     3
            39              X            X             X            X          X     5
            40              X                          X            X          X     4
            41              X            X             X            X                4
            42              X            X                                           2
            43              X            X             X            X          X     5
            44              X            X             X                       X     4
            45              X            X             X            X          X     5
            46              X            X                                           2
            47              X            X             X            X                4
            48              X            X             X                       X     4
            49              X            X             X                             3
            50              X            X                          X                3
            51              X            X                          X                3
            52              X            X                                           2
            53                           X                          X          X     3
            54              X            X                                           2
            55              X            X             X            X                4
            56              X            X             X                             3
            57              X            X                                           2
            58              X            X                                           2
            59              X            X                                           2
            60              X            X             X                       X     4
            61              X            X                                           2
            62                           X                                     X     2
            63              X            X             X            X                4
            64              X            X             X            X                4
            65              X            X                                           2
            66              X            X                          X          X     4
            67              X            X             X                       X     4
            68              X            X                          X                3

An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                21
          Sample                                                                    Total
            No.             A            B             C            D          E    Errors
             69             X            X             X                              3
             70             X            X                                     X      3
             71             X            X             X                       X      4
             72             X            X                                     X      3
             73             X            X                                     X      3
             74             X            X             X            X                 4
             75             X            X                                            2
             76             X            X             X            X                 4
             77             X            X                                            2
             78             X            X             X            X                 4
             79             X            X                                            2
             80             X            X             X            X                 4
             81             X            X             X            X                 4
             82             X            X                          X                 3
             83             X            X                          X                 3
             84             X            X                                            2
             85             X            X             X                              3
             86             X            X             X                       X      4
             87             X            X                                            2
             88             X            X             X            X                 4
             89             X            X                                            2
             90             X            X             X            X                 4
             91             X            X             X            X                 4
             92             X                          X            X          X      4
             93             X            X             X            X                 4
             94             X            X                                     X      3
             95             X            X             X                              3
             96             X            X             X                              3
             97             X            X             X            X                 4
             98             X            X             X            X                 4
             99             X            X             X            X                 4
            100             X            X                                            2

           Totals          97            95           49            44         39




An Illinois Physical Therapist’s Outpatient Therapy Services (A-05-13-00010)                 22
                                        APPENDIX E: THERAPIST'S COMMENTS 



                                              GOLDBERG LAW GROUP, LLC 

                                                       A TT O R NEYS        A T   L AW

    ROBERT A. BAUERSCHMIDT                                                                                                 SuiTE 1675
    GERALD G. GOLDBERG•                                                                                  120 S o un1 RIVERSIDE PLAZA
    JAMES   B. GOLDBERG                                                                                CHICAGO, I LLINOIS 60606· 3988
    MICHAEL    K. GoLDBERG
    JENNA   E. MILAEGER                                                                                            F AX   (3 12) 930-0944
    SERENA NAKANO                                                                                          TELEPHONE      (3 12) 930-5600
    STEPHANIE A. WOLFSON                                                                                www.goldb erglawoffice.com


    Co COUNSEL                                                                                                      *Also hccnsed in Arizona
    R. SAM H oovER                                                                                  *"'Also licensed in New York and Mexico

    OF COUNSEL
    MICHAEL   V.   F AVIA
    JACQUELINE     B. F RIEDMAN-STEIN                         April 25, 2014
    ADRIENNE J . H ERSH
    URMILA C HAUDHRY-L EVY,     M .D.                                                                                         PARALEGAL
    GEORGINA   FASIAN..                                                                                                     PHILIP G ZESH


                   TO :             Sheri L. Fulcher
                                    Regional Inspector General for Audit Services
                                    Office of Audit Services, Region V
                                    233 North Michigan Avenue, Suite 1360
                                    Chicago, Illinois 6060 1

                   FROM : 	         Goldberg Law Group, LL C
                                    Representative for Physical Therapist

                   SUBJECT: 	       Office oflnspector General (OIG) Draft Report: "An Illinois Physical Therapist
                                    Claimed Unallowable Medicare Patt B Reimbursement for Outpatient Therapy
                                    Services" (A-05-13-00010)

                   Dear Ms. Fulcher,

                   Tha nk you for the opportunity to review and comme nt on the subject OIG draft report. The
                   physical therapist that was subj ect of the audit has asked our office to respond to your letter as
                   his represe ntative.

                   As a preliminary matter, the executive summary states that this therapist was selected based on
                   the total volume of Medicare billings. The therapist was identified as one of the "highest
                   Medi care therapy billers in the State of Illinois." The OIG has not disclosed whether the volume
                   of this therapist's total billings was compared to other individua l therapists or group practices.

                   Based on our review of the sample clai ms and Medicare requirements, we have noted a large
                   number of discrepancies in the OIG's findings and recommendations as discussed below.

                   R"-spon~e_,to_!)IG' s   Findings of Alleged Error

                       I . 	 97 of the I 00 claims sampled were alleged to be in error because the documentation did
                             not support Medicare· s plan of care requirements.




An Illinois Physical Therapist 's Outpatient Therapy Services (A-05-13-0001 0)                                                                 23
            Re: OIG Draft Report (A-05-13-00010)
            Page 2 of 10


                   Specific Allegations:

                       a. 	 For 95 claims, the OIG alleges that the plan of care did not include "measureable
                            goals that pertained to identified functional impairments."

                       Response: The Medicare Benefit Policy Manual ("MBPM") provision cited that was
                       in effect at the time services were rendered establishes no condition of payment
                       requiring that a plan of care contain "measureable goals that pertained to identified
                       functional impairments." IOM Pub 100-2, Chapter IS §§220.1.2A and B. The
                       provision (cited from Revision 126 of the MBPM, effective May 2 1, 2010 and which
                       was unchanged through the review period) req uires at a minimum that the plan
                       contain "diagnoses; long term treatment goals; and the type, amount, duration and
                       frequency of therapy services." Relative to the requirement for long term goals, the
                       MBPM provides further explanation stating that goals "should be measurable and
                       pertain to identified functional impairments." (emphasis added). It is noted that the
                       use of the word "should" does not indicate a mandated requirement. Instead, this
                       provision suggests that therapists establish measureable goals where possible or
                       relevant. Such a conclusion is justified when we consider that most objective
                       problems for which physical therapy is appropriate are not capable of quantifiable
                       measure and therefore it is impossible to establish measurable goals. Additionally, it
                       must be noted that even if the guidance could be construed as requiring measurable
                       goals, this is different than the establishment of a measure ascertaining when the goal
                       is met. A goal such as improving gait is "measureable" based on the fact that
                       subsequent assessment of gait by the therapist can be objectively evaluated. The 010,
                       however, seems to require a quantifiable standard establishing when the goal will be
                       met. Such a requirement is not supported by the MBPM provision cited and would be
                       unattainable for most conditions since there is no clinically accepted basis for
                       establishing the degree of deficit for most conditions, including gait.

                       Notwithstanding the foregoing, denial of payment on this basis is not appropriate. The
                       provisions of Section 220.1 of MBPM which establish the express "Conditions of
                       Coverage and Payment for Outpatient Physical Therapy" do not require " measureable
                       long term goals." It is noted that these provisions, which are consistent with the
                       regulatory provisions at 42 CFR §424 .24, establish that there must be a plan of care
                       established by a physician!NPP or by the therapist providing service, but do not
                       preclude payment where the long term goals are not measureable. Such a conclusion
                       is consistent with the provisions of the Jimmo settlement wherein CMS
                       acknowledged that there is no requirement for improvement under the regulatory
                       provisions and CMS guidance pertaining to physical therapy. To the extent that the
                       ostensible purpose of measurable goals pertaining to functional impairments is to
                       provide a basis for measuring the amOLmt of improvement achieved by physical
                       therapy services as a means of establishing the necessity of the care, and because
                       Jimmo established that improvement is not required as a condition of payment, such a
                       requirement serves no apparent purpose consistent with CMS ' fai lure to identify




An Illinois Physical Therapist's Outpatient Therapy S ervices (A-05-13-00010)                                    24
            Re: OIG Draft Report (A-05-1 3-0001 0)
            Page 3 of 10


                       "measureable goals" as a condition of payment. As a result, denial on this basis is
                       inappropriate.

                       b. 	 For 74 claims, the OIG alleges that the plan was invalid because it did not include
                            a contemporaneous signature at the time the plan of care was prepared.

                       Response: OIG recognized that the documentation associated with 73 of the 74
                       claims was recorded electronically. As such, a contemporaneous signature is not
                       possible. A contemporaneous signature is not a condition of payment as acknowledge
                       in Section 220. 1 of the MBPM. Add iti onally, CMS addresses the issue of signatures
                       in its Program Integrity Manual, 10M Pub 100-8 , Chapter 3, Section 3.3.2.4. Under
                       these provision s, denial on this basis was inappropriate.

                       Under Exception 3 of Section 220.1, where the "relevant regulation, NC D, LCD and
                       CMS manuals are silent on whether the signature needs to be legible or present and
                       the signature is illegible/missing, the reviewer shall follow the guidelines listed below
                       to discern the identity and credentials (e.g., MD, RN, etc.) of the signator. In cases
                       where the relevant regulation, NCD, LCD and CMS manuals have specific signature
                       requirements, those signature requirements take precedence."

                       In this case, the relevant regulation is 42 C.F.R. §424.24. This provision establishes a
                       signature requirement for certification of the plan of care, b ut not the plan of care
                       itself. Similarly, the MBPM provisions establishing the conditions of payment are
                       silent as to signatures. The guid ance relative to the contents of a plan are found in the
                       MBPM at Section 220.1.2.B. No provision establishes a signature requirement for a
                       plan of care. The relevant version of LCD L28531 in effect during the review per iod
                       establishes that a plan of care must be certified by a physician!NPP and that the
                       physician/NPP is responsible for rev iewing, signing and dating the plan. There is no
                       express requirement that the plan be signed and dated by the therapist. LCD L28531
                       does include, as part of the documentation requirements section, a provision stating,
                       "Medicare requires a legible identifier of the person(s) that provided the service."
                       The provision also states that effective April 28, 2008, stamped signatures are not
                       acceptable. This provision, however, appears to app ly to treatment notes and not to
                       the plan of care. As there is no express signature requirement for the plan of care,
                       especially one that establishes a condition of payment, the Program Integrity Manual
                       ("PIM") requires acceptance of a signature attestation from the author of the medical
                       record.

                       As there are no specific format requirements for an attestation, the fact that the
                       therapist that recorded the electronic notation is the same person that applied the
                       signature stamp containing his name to the electronic notatio ns above his typewritten
                       name (in response to the OIG request for medical records), the OIG should consider
                       that the attestation requirements are satisfied. To the extent that further attestation is
                       necessary, this is easily provided and the allegations associated with these 74 cla ims
                       wou ld not justify denial.




An Illinois Physical Therapist 's Outpatient Therapy Services (A-05-13-00010)                                       25
            Re: OIG Draft Report (A-05-13-000 10)
            Page 4 of 10



                       c. 	 For 5 claims, the OIG alleges that the plan of care was missing or incomplete.

                       Response: The OIG does not identify the specific issues supporting the allegations.
                       Additionally, it is noted that the spreadsheet data provided indicates only three claims
                       where this error was attributed. In each case, the plan of care does not explicitly
                       address the type, frequency or duration of care, or the anticipated goals of care:
                       however, this information is evident when the documentation is reviewed as a whole.
                       We believe that because the required information can be inferred from the record as a
                       whole, the requirement is satisfied.

                2. 	 95 of the 100 claims sampled were alleged to be in error because the documentation did
                     not meet Medicare's treatment note requirements.

                As a preliminary matter, OlG cites section lli33(e) of the Social Security Act ("the Act"),
                which states that "[n]o payment shall be made to any provider of services or other person
                under this part unless there has been furnished such information as may be necessary in
                order to determine the amounts due such provider or other person under this part for the
                period with respect to which the amounts are being paid or for any prior period. " (emphasis
                added) . For CMS to "determine the amounts due", the only information required is a CPT or
                HCPCS code. Additionally, the requirement of "information" under this section of the Act
                cited should not be construed as meaning "documentation." According to the HHS OlG
                Office of Audit Services document entitled "The Audit Process" (2nd ed., January 2005),
                information includes physical, analytical, documentary and testimonial evidence.

                The OIG also cites the companion regulatory provision, 42 CFR §424.5(a)(6), which requires
                "[t]he provider, supplier, or beneficiary, as appropriate, (to] furnish to the intermediary or
                carrier sufficient information to determine whether payment is due and the amount of
                payment. " While the focus remains on " information" as opposed to documentation, it is
                noted that the regulatory provision also requires the provider to supply information to
                "determine whether payment is due." Ostensibly. the regulation is implying a requi rement for
                information to determine whether services were medically necessary, or otherwise met the
                stated conditions of payment as expressed at 42 CFR §424.24 and further detailed in the
                MBPM at Section 220.1. Because compliance with CMS guidance pertaining to the content
                of a treatment note is not an express condition of payment, the regulatory demand for
                information necessary to determine the appropriateness of payment cannot be construed as
                requiring compliance with the documentation content guidance for treatment notes
                established in the MBPM.

                Finally, OIG cites provisions of the Medicare Benefit Policy Manual, !OM Pub 100-2,
                Chapter 15, Section 220.3.A. This provision (in effect at the time services were rendered)
                creates a general requirement that documentation must be "legible, relevant and sufficient to
                justify the services billed." There is also a statement that the documentation requirements of
                Section 220 establish the "minimal expectations" for documentation content. Consistent with
                the analysis above, the starred provisions of Section 220.1 in effect at the time services were




An Illinois Physical Therapist's Outpatient Therapy Services (A-05-13-00010)                                      26
            Re: 010 Draft Report (A-05 -1 3-00010)
            Page 5 of 10


                rendered and which establish conditions of payment under 42 CFR §424.24(c) and Section
                1835(a)(2)(D) of the Act do not require conformance with documentation content guidance
                for treatment notes found at Section 220.3.E as a condition ofpayment.

                Specific Allegations:

                       a. 	 For 93 claims, the 010 alleges that the treatment notes did not indicate the
                            specific interventions/modalities provided.

                       Response: The basis for this error is that while the notation specifically identified
                       performance of therapeutic exercises to specitic regions of the body consistent with
                       the code billed, as required under the MBPM at section 220.3.E, the 010 expressed
                       concern that the documentation did not detail the specific exercises performed. As
                       there is no requirement that the details of how each service was performed, this
                       allegation of error is not supportable. even if such an instruction did exist, it is not an
                       identified condition of payment under the provisions of section 220.1 and therefore
                       denial of payment is improper.

                       b. 	 For 75 claims, the 010 alleges that the treatment notes did not support the number
                            of units billed.

                       Response: With respect to 71 claims, the OIO alleges that the documentation did not
                       indicate total treatment time. However, the 010 fails to recognize that the total time
                       element of the treatment note documentation only becomes relevant where multiple
                       time-based services are provided and the time in units for each time-based service is
                       not documented. The Medicare Claims Processing Manual ("MCPM") instruction
                       pertaining to time-based services (IOM Pub 100-4, Chapter 5, Section 20.2.C)
                       references the MBPM instruction (!OM Pub 100-2, Chapter 15, Section 220.3B),
                       which states that "the amount of time for each specific intervention/modality
                       provided to the patient is not required to be documented in the Treatment Note.
                       However, the total number of timed minutes must be documented ." In the
                       documentation provided, the therapist detailed the amount of ti me spent in
                       performance of each time-based service. As a result, not only can we easily infer the
                       amount of total time spent in the performance of tim e-based services so that the total
                       time vs. total units analysis indicated in the MCPM can be performed, but the
                       provider exceeded the documentation requirements by detailing the time of
                       performance for each time-based service. As a result, denial of these 7 1 claims was
                       inappropriate.

                       With respect to 4 claims, the 010 alleges that the documentation did not justify the
                       number of units reported. It was acknowledged by the provider during the audit that
                       where the time spent performing a time-based service was not expressly recorded,
                       that the service was performed suft!ciently to justify a single unit. It is acknowledged,
                       based on the analysis above, that in such a case the total treatment time would have to
                       be documented. Since it was not, the provider acknowledges that the documentation




An Illinois Physical Therapist 's Outpatient Therapy Services (A-05-13-00010)                                        27
            Re: OIG Draft Report (A-05-13-00010)
            Page 6 of 10


                       for these four claims was deficient. Nonetheless, the provider submitted appropriate
                       testimonial evidence demonstrating that services were performed sufficiently to
                       justify the payments made. Under the HHS OIG Office of Audit Services document
                       referenced above, OIG is bound to consider this information. Regardless, this
                       documentation deficiency is not a condition of payment and does not support denial
                       unless the OIG concludes that the documentary and testimonial evidence is
                       insufficient for Medicare to determine the amount or appropriateness of payment.

                       c. 	 For 73 claims, the OIG alleges that the treatment notes did not have a valid
                            therapist signature.

                       Response: Once again, the OIG recognizes that these were electronically created
                       records but nonetheless complains that they were not contemporaneously signed and
                       that the signature stamp applied by the therapist is not a permissible form of
                       signature. As noted above, this is a technical error according to PIM requirements
                       that is not related to an order and therefore is correctable with an attestation. A
                       signature on the treatment note, let alone a contemporaneous signature, is not a
                       condition of payment under the MBPM requirements of Section 220. 1. Additionally,
                       compliance is not possible until the note is printed (the EMR program used does not
                       provide for an electronic signature). As such, the therapist's use of his own signature
                       stamp to attest to the fact that the notation was of his own creation (in response to the
                       OIG's request for medical records) certainly meets the spirit of the attestation rule. To
                       the extent that oro disagrees, the defect is correctable with an attestation and
                       therefore does not serve as a valid basis for denial.

                       d. 	 For 7 claims, the OIG alleges that the therapist reported services that were not
                            prescribed under the established plan of care.

                       Response: There is no evidence that OIG considered whether such a change in plan
                       was appropriate under the provisions for a change in the plan of care outlined in the
                       MBPM at Section 220. 1.2.C, which permits written changes to the plan of care. In
                       this case, the changes to the plan of care are evident in the daily notations and where
                       the notation is signed by the either the physician!NPP or the physical therapist (in the
                       case of physical therapy). Where the therapist makes a change, the change must not
                       "significantly alter" the plan of treatment. Minor changes in therapeutic modalities
                       used, given that many have similar therapeutic effects despite changes in the physical
                       agent used, would not constitute a major change to the plan of care. As a result, the
                       changes were not significant and denial was improper.

                3. 	 49 of the I 00 claims sampled were alleged to be in error because the documentation did
                     not contain a progress report within I 0 treatment days or at least once each 30 calendar
                     days, whichever is less (42 claims) or there was no progress report in the medical record
                     (7 claims).




An Illinois Physical Therapist's Outpatient Therapy Services (A-05-13-00010)                                       28
             Re: OIG Draft Report (A-05-13-00010)
             Page 7 of 10


                Response: Under Section 220.3B of the MBPM, progress reports are "required" although
                they are not required as a condition of payment under Section 220.1. For this reason alone,
                denial of payment is not warranted except where the deficiencies would substantiate a
                conclusion that services were not medically necessary under the provisions of Section 220.2.

                The OIG also apparently failed to consider the provision detailing that progress reports are
                required only when records are requested afte r the reports are due, as well as the provision
                indicating that treatment notes can serve as pro gress notes where they contain the appropriate
                information.

                The allegation of error also ignores the purpose of progress reports, which CMS expressly
                declares at Section 220.3D of the MBPM are for justifying the necessity of treatment. The
                allegation of error is based on perceived content deficiencies of the record as opposed to
                whether the documentation and clinical circumstances warranting the care provided were
                consistent with the standards of necessity detailed at Section 220.2 of the MBPM. Therefore,
                the denials are improper.

                Relative to the timing, OIG did recognize in its analysis that there is a 7-day grace period for
                a delayed report. What it did not evaluate was whether the treatment notes within the
                appropriate time frame (in cases where a formal progress report was not evident),
                demonstrated the progress of the patient as well as the active participation of the
                therapist/clinician. Relative to content, CMS provides the following guidance:

                        Assessment of improvement, extent ofprogress (or lack thereof) toward each goal;
                    • 	 Plans for continuing treatment, reference to additional evaluation results, and/or
                        treatment plan revisions should be documented in the clinician' s Progress Report; and
                        Changes to long or short-term goals, discharge or an updated plan of care that is sent
                        to the physician/NPP for certification of the next interval of treatment.

                Relative to the first element, an absence of documented progress can be easily infe.rred to
                mean that no progress occurred. In some cases, progress was evident through the subjective
                and objective data recorded. Simi larly, an absence of documentation detailing changes to the
                plan relative to continuing treatment or p lan revisions appropriately indicate that the therapist
                had no intention of changing the plan of care. As noted in our response above, where minor
                changes were made, they were evident in the documentation. Additionally, it cannot be
                ignored that collectively, relative to the purpose of establishing the need for care, the se
                content standards seem to suggest that they are based on the concept that for care to be
                necessary, the therapist must provide evidence of improvement in the patient' s condition
                contrary to the conclusions of CMS expressed in the Jimmo settlement.

                Ultimately, the perceived defects, which are based on an incomplete analysis, do not preclude
                an analysis of medical necessity. As OrG addressed the necessity of care as a separate
                allegation of error, the findings associated with these 49 claims do not evidence violation of a
                condition of payment and denial is improper.




A n Illinois Physical Therapist 's Outpatient Therapy Services (A-05-13-00010)                                       29
             Re: OIG Draft Report (A-05-13-000 I 0)
             Page 8 oflO


                 4. 	 44 of the I 00 claims sampled were alleged to be in error because the therapy services
                      were not medically necessary.

                 Response: In support of its allegation that services were not medically necessary, the OIG
                 has relied on purported documentation deficiencies as follows:

                        Goals in plans of care were not measureable (35 services)
                        Invalid or missing certifications of the plan of care (35 services)
                        Overall medical record documentation failed to support medical necessity (25
                        services)
                        Physical therapy was repetitive with no evidence that skilled therapy services were
                        needed (24 services).

                 oro notes rev iew of 43 claims/ services by an independent medical review contractor and
                 that the additional claim was reviewed by the Medicare Administrative Contractor. 0 10 cites
                 section 1862(a)(l)(A) of the Act as the standard for necessity but does not reference the
                 provisions of Section 220.2 of the MBPM.

                 With respect to the first claimed deficiency, the presumption is that measureable goals are
                 required as a precondition to a determination of medical necessity. As addressed above, this
                 is not the case and even if it were, such a conclusion would be contrary to the determination
                 of CMS in .Jimmo.

                 Relative to the second claimed deficiency, a certi.tication of the plan of care by a physician!
                 NPP is a condition of payment unrelated to the necessity of care. Nevertheless, oro has
                 ignored the provisions on delayed certification in the MBPM at Section 220.1.3, which
                 permits delayed certifications at any later date where the physician!NPP makes a certification
                 that is accompanied by a reason for the delay. As the therapist has since obtained the
                 appropriate certifications, this basis for denial is no longer valid.

                 With respect to the third claimed deficiency, no specific facts are provided supporting the
                 determination that the " overall medical record failed to support medical necessity ." A review
                 of the spreadsheet data for these claims reveals that in 23 cases, " no objective progress" was
                 indicated as a basis for the determination, which is contrary to CMS disavowing the so called
                 "improvement standard" as a predicate for coverage in the .Jimmo settlement. Additionally,
                 OIG notes that in 9 cases that the therapy was repetitive with no evidence of skilled therapy
                 services needed. The MBPM describes unskilled services as "palliative" procedures that arc
                 repetitive OR reinforce previously learned skills OR maintain function after a maintenance
                 program has developed. There is no evidence that any of the care was purely palliative (i.e.
                 for short term reduction of pain only). There is also no evidence that the modalities and
                 procedures were performed to reinforce previously learned skills. Such an allegation is
                 usually appropriate with occupational therapy techniques designed to teach specific ADL
                 skills, which is not the case for the services evaluated. Finally, the preclusion pertaining to
                 therapy oriented to maintenance of function is contrary to the CMS conclusions pertaining to
                 necessity in the .limmo settlement where it disavowed that CMS ever required




A n Illinois Physical Therapist 's Outpatient Therapy S ervices (A-05-13-00010)                                    30
              Re: OfG Draft Report (A-05-1 3-00010)
              Page 9 of 10


                 " improvement" as a pre-condition to coverage. Finally, the OIG's determination that the
                 documentation failed to support medical necessity is called into question by the fact that it
                 made two different determinations on medical necessity fo r two separate service dates under
                 the same plan of care; the OIG found that services rendered to a patient early on in treatment
                 w1der a plan of care were not medically necessary, but that services rendered later under the
                 same plan of care were not medically necessary. As a result, the allegations of error, to the
                 extent that they served as a basis for denial under the standards of medical necessity are not
                 supportable.

                 Finally, for the two remaining cases, OTG alleged in both that "goals were not measureable",
                 which as noted above is neither a condition of payment nor a valid basis for evaluating the
                 necessity of care. In one of these cases, OIG made the additional allegation and in one of
                 these cases therapy was repetitive with no evidence of skilled therapy services needed. As is
                 noted above, this is an invalid basis for declaring services to be medically unnecessary.

                 As demonstrated above, the various allegations provided in an attempt to justify that services
                 were not medically necessary for the 44 claims identified are invalid and therefore do not
                 support denial of payment.

                 5. 	 39 ofthe 100 claims sampled were alleged to not meet Medicare's physician certification
                      requirements.

                 Response: While it is correct that certifications must be signed and dated, the O!G appears to
                 have ignored the CMS provision that allows delayed certifications. As noted above in
                 response to a llegation 4, Section 220.1.3 of the MBPM permits delayed certification at any
                 later date where the physician/NPP makes a certification that is accompanied by a reason for
                 the delay. CMS indicates a variety of reasons including: the physician simply failed to sign
                 and return the certification or that the certification was lost. As the therapist has since
                 obtained the appropriate certifications, this basis for denial is no longer valid.

             Response to OIG's Projected Overpayment

             Based on the foregoing findings of alleged error, the OTG has projected overpayment in the
             amount of $634,837 and recommends that a refund to the Federal Govermnent be made in that
             amount. However, we have identified numerous problems in the statistical sampling
             methodology utilized by the OIG.

             The timeframe for the audit included claims from 2011 and excluded unpaid claims a nd claims
             with a total paid amount Jess than $25.00. While the number of claims that fell into this category
             is not disclosed, the exclusion of these low value claims from the sample would appear to bias
             the projected financial error to yield a higher overpayment amount even assuming the basis for
             error was valid. This conclusion is supported given that the point estimate for the projected
             overpayment exceeds the total payment amount for the universe of claims.




A n Illinois Physical Therapist 's Outpatient Therapy Services (A -05-1 3-00010)                                  31
              Re: OIG Draft Report (A-05- 13-000 I0)
              Page 10 of 10


              Relative to the sample size determination, OIG discloses that the sample was a "simple random
              sample" but docs not divulge the basis for determining that the sample size of I 00 claims was a
              statistically valid sample size.

              Additionally, there is no estimated error rate, universe amount or standard deviation values
              provided, which are necessary to determine the appropriate sample size. As a result, it is apparent
              that the value of l00 claims was arbitrarily selected on the presumption that the sample was
              appropriately sized. While noted that insufficient sample size is not a per se basis for detennining
              that a projection is invalid, PIM standards do require that the projection be statistically valid.
              Specifically, CMS requires that "proper procedures for execution of probability sampling ... be
              followed." IOM Pub 100-8, Chapter 8, Section 8.4.4.3.

              The basis for this requirement is fundamental to the theory supporting the validity of statistical
              error rate prediction. Simply put, where the sample is not representative of the universe, the
              resulting projection becomes an incalculably invalid estimate of the total error for which
              selection of the lower bound value cannot compensate.

              The non-statistical nature of the projection in this case is evident given that the point estimate
              from the projection calculations at Appendix B of the draft report yielded an amount in excess of
              the total value of all claims in the sampling frame strongly suggesting that the sample as drawn
              was not representative of the universe.

              As an additional concern, OIG alleges a variety of errors, some of which apply to the same
              claim. Assuming the allegations of en·or justified a denial of payment, which they do not, as
              there is no normative distribution of a single allegation of error among the samples let alone the
              permutations created by allegations of a combination of errors, the projection based solely on the
              presumed financial error in the sample is not a valid basis for predicting the particular error or
              errors that might be found in the universe of claims.

              finally , the sample numbers contained within the summary of sample errors (Appendix D) do
              not correlate with the original sample number assignment that was provided in the audit, thereby
              challenging the validity of random selection.

              For these reasons, we believe the projection is not statistically valid.




A n Illinois Physical Therapist's Outpatient Therapy Services (A -05-13-0001 0)                                      32
